<html>
<title> - A REVIEW OF RECENTLY COMPLETED UNITED STATES ARMY CORPS OF ENGINEERS CHIEF'S REPORTS, PART 3</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 A REVIEW OF RECENTLY COMPLETED UNITED STATES ARMY CORPS OF ENGINEERS 
                        CHIEF'S REPORTS, PART 3

=======================================================================

                                (114-52)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-646 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois

                                  (ii)

  

            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            DONNA F. EDWARDS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              LOIS FRANKEL, Florida
JEFF DENHAM, California              JARED HUFFMAN, California
REID J. RIBBLE, Wisconsin            EDDIE BERNICE JOHNSON, Texas
THOMAS MASSIE, Kentucky              ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut
JOHN KATKO, New York                 ELEANOR HOLMES NORTON, District of 
BRIAN BABIN, Texas                   Columbia
CRESENT HARDY, Nevada                RICHARD M. NOLAN, Minnesota
GARRET GRAVES, Louisiana             PETER A. DeFAZIO, Oregon (Ex 
DAVID ROUZER, North Carolina         Officio)
MIKE BOST, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Major General Donald Jackson, Deputy Commanding General for Civil 
  and Emergency Operations, U.S. Army Corps of Engineers:

    Testimony....................................................     4
    Prepared statement...........................................    18
    Responses to questions for the record from Hon. Bob Gibbs, a 
      Representative in Congress from the State of Ohio..........    23

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Rick Larsen of Washington...................................    16

                       SUBMISSIONS FOR THE RECORD

Letter of June 27, 2016, from Hon. Patty Murray, a U.S. Senator 
  from the State of Washington, et al., to Hon. Jo-Ellen Darcy, 
  Assistant Secretary of the Army (Civil Works), U.S. Department 
  of the Army, submitted by Hon. Rick Larsen.....................    26
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
 
 A REVIEW OF RECENTLY COMPLETED UNITED STATES ARMY CORPS OF ENGINEERS 
                        CHIEF'S REPORTS, PART 3

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2016

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. We will call the Subcommittee on Water Resources 
and Environment of the Committee on Transportation and 
Infrastructure to order.
    Today we are having a hearing to review the recently 
completed United States Army Corps of Engineers Chief's 
Reports.
    I would like to welcome everybody to the hearing.
    This past May, the Committee on Transportation and 
Infrastructure unanimously passed H.R. 5303, the Water 
Resources Development Act of 2016. This legislation builds upon 
the success of WRRDA 2014, one of the most policy- and reform-
focused pieces of legislation related to the U.S. Army Corps of 
Engineers.
    H.R. 5303 is a bipartisan bill that was developed by 
working across the aisle to achieve a common goal of investing 
in America's future. H.R. 5303 contains no earmarks, as WRRDA 
2014 did, and strengthens our water transportation networks to 
promote competitiveness, prosperity, and economic growth.
    This committee held numerous public roundtables and 
official hearings in developing this legislation. We have heard 
from the public, industry, stakeholders, and from our 
colleagues in Congress while developing this legislation and 
have incorporated their ideas into H.R. 5303.
    I appreciate Chairman Shuster, Ranking Member DeFazio, and 
Mrs. Napolitano's bipartisan work to address the vital need for 
America.
    Today we are holding a hearing to review two Army Corps of 
Engineers reports that have been delivered to Congress since 
this subcommittee met last in May of this year. We intend to 
review these proposed projects to ensure they meet our criteria 
for authorization.
    Additionally, the Corps of Engineers has delivered to 
Congress two Post-Authorization Change Reports recommending 
modifications to ongoing construction projects at Swope Park, 
Missouri, and Picayune Strand, Florida.
    These Chief's Reports and Post-Authorization Change Reports 
address the missions of the Corps and balance economic 
development and environmental considerations equally.
    The Corps of Engineers constructs projects for the purposes 
of navigation, flood control, shoreline protection, 
hydroelectric power, recreation, environmental protection, 
restoration and enhancement, and fish and wildlife mitigation.
    The Corps of Engineers planning process considers economic 
development and environmental needs as it addresses water 
resource challenges. This rigorous planning process addresses 
the Nation's water resources needs by exploring a full range of 
alternatives in developing solutions that meet both national 
and local needs.
    The two Chief's Reports and two Post-Authorization Change 
Reports we are discussing today are the result of this rigorous 
planning process. These projects are proposed by the non-
Federal interests in cooperation and consultation with the 
Corps. All of these Chief's Reports and Post-Authorization 
Change Reports, while tailored to meet locally developed needs, 
have national economic and environmental benefits.
    I would like to welcome General Jackson for being here 
today. It is an important hearing today, and thank you for your 
hard work on both the Upper Ohio River and southwest coastal 
Louisiana's Chief's Reports.
    And before I move on, I do want to ask unanimous consent 
that Representative Rick Larsen be permitted to join this 
subcommittee for today's hearing, if there is no objection.
    Without objection, so ordered.
    At this time I recognize my colleague from California, Mrs. 
Napolitano, for any comments she may have.
    Mrs. Napolitano. Yes, thank you, Mr. Chairman.
    Today's hearing will review the Chief's Reports and Post-
Authorization Change Reports that have been completed and 
submitted to Congress since our hearing in May of this year. We 
applaud the chairman's willingness to make sure that all of the 
pending Chief's Reports are eligible for inclusion in the new 
Water Resources Reform and Development Act and for the decision 
to hold this hearing today.
    Since February, the committee has received completed Corps 
feasibility studies on the southwest coastal Louisiana project. 
In addition to the project, it brings the total to 29 pending 
Chief's Reports by the upcoming Water Resources Reform and 
Development Act. These important projects representing a 
diversity of projects' purposes and geographic regions are the 
next general of water infrastructure investment for our Nation. 
They all help to maintain and it helps national, regional and 
local economies in a variety of ways.
    As noted in our last hearing, the range of pending projects 
include ecosystem restoration projects ranging from Los Angeles 
River, California, to the Central Everglades in Florida; 
navigation projects, such as the project for the Port of 
Brownsville, Texas; and flood control projects, such as the 
American River common features project, also in California.
    Again, Mr. Chairman, I am pleased that we are discussing 
the pending Chief's Reports, and I would remind the chairman of 
the constraints we continue to face in utilizing Corps 
expertise on a host of other issues within the Corps 
authorities.
    While Chairman Shuster has been accommodating to many 
Members on both sides of the aisle, including new Corps 
projects and studies in the pending water resources bill, I 
also recognize the constraints placed on him and this committee 
by the ill-conceived moratorium on infrastructure investment of 
the Republican Conference.
    To that end, I want to call to this committee's attention a 
bipartisan House resolution, H.R. 813, introduced by a 
gentleman from Florida, Mr. Rooney, that would exclude water 
resources development projects of the Corps from the definition 
of a congressional earmark. This is a first good step to what I 
hope is a refocus of Congress on this wise infrastructure 
investment throughout the Nation. Regardless of the party, we 
should all support robust investment in our water resources and 
our water infrastructure.
    For too long we have been simply closing our eyes to the 
condition of our Nation's infrastructure as it crumbles around 
us. Now in places like Flint, MI, Toledo, OH, and in my home 
State in California, we face what decades ago should have been 
unthinkable: questions about the continued reliability and 
safety of our water systems and water-related infrastructure.
    Mr. Chairman, this bill is now past due. This is a serious 
issue for our States and our local communities for the safety 
and well-being of our families and for our overall quality of 
life. Yet day after day no action is taken in this Congress to 
address these issues. Mr. Chairman, we need to change that.
    Thank you, Mr. Chairman, for today's hearing, and I welcome 
General Jackson for his testimony.
    Mr. Gibbs. Thank you.
    I also ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing.
    So ordered.
    At this time I want to recognize Chairman Shuster of the 
full committee for any comments he may have.
    Mr. Shuster. Thank you, Chairman Gibbs, and thank you 
Ranking Member Napolitano for holding this hearing today.
    This is a critical part of getting back to a 2-year, every 
Congress process where we conduct oversight of WRDA and 
authorize these projects.
    So today, looking at these two Chief's Reports and these 
Post-Authorization Change Reports, it's critical we do this to 
make sure that it is in the next WRDA bill as we move forward 
hopefully here in the coming days and weeks or at least months.
    I really want to especially thank General Jackson and 
General Semonite for your swift action on the Upper Ohio River, 
the Emsworth, Dashields, and Montgomery Locks Facilities, which 
is critical to the Port of Pittsburgh, one of the Nation's 
busiest inland ports.
     I cannot thank you enough for that speed. We hope and I 
understand talking to General Semonite that you are doing some 
standardization, and you want to do that to make sure we save 
dollars and, again, be able to use the taxpayers' dollars 
wisely. And as Representative Napolitano said, and I echo her 
words, we are not investing the way we should in these locks 
and dams. It is a critical part of our infrastructure, and it 
is one of the reasons this country is a great economic power, 
going back 200 years, because of the rivers and the ports and 
the harbors we have in this country.
    So, again, thanks for being here today, and I yield back.
    Mr. Gibbs. Thank you.
    At this time I want to welcome General Ed Jackson. He is 
the Deputy Commander General for Civil Emergency Operations in 
the United States Army Corps of Engineers. He is here to talk 
about the two Chief's Reports and the Change Reports, and 
anything else.
    So welcome, General. The floor is yours.

 TESTIMONY OF MAJOR GENERAL DONALD JACKSON, DEPUTY COMMANDING 
GENERAL FOR CIVIL AND EMERGENCY OPERATIONS, U.S. ARMY CORPS OF 
                           ENGINEERS

    General Jackson. Chairman Gibbs, Chairman Shuster, Ranking 
Member Napolitano, and distinguished members of the 
subcommittee, as the chairman said, I am Major General Ed 
Jackson with a long title, Deputy Commanding General for Civil 
and Emergency Operations for the U.S. Army Corps of Engineers.
    I sincerely thank you for the opportunity to be here today 
to discuss the Chief's Reports that have been completed since I 
last testified for you on May 17th of this year. My written 
testimony includes detailed descriptions of the six Chief's 
Reports and two project Post-Authorization Change Reports that 
have completed executive branch review since May 17 of 2016.
    I will cover these projects briefly in my remarks today. My 
written testimony also identifies Corps decision documents that 
are still under review by the administration, including eight 
potential projects that have Chief's Reports and two projects 
with Post-Authorization Change Reports.
    On the first, the Upper Turkey Creek Chief's Report was 
transmitted to Congress on June the 30 of 2016. The recommended 
plan reduces flood risk along the Turkey Creek, a tributary to 
the Kansas River in Merriam, Kansas, which is a part of the 
Kansas City metropolitan area. Based upon October 2015 price 
levels, the total initial cost for this project is estimated at 
$37.8 million.
    The West Sacramento Chief's Report was transmitted to 
Congress on August 22, 2016. The report recommends flood risk 
management improvements along the Sacramento River, Yolo Bypass 
and Sacramento River Deep Water Ship Channel within the 
metropolitan area of West Sacramento, California.
    Based on October 2015 price levels, the total initial cost 
for this project is estimated at $1.2 billion.
    The American River Watershed, Common Features Chief's 
Report was transmitted to Congress on August 29, 2016. The 
report recommends flood risk management improvements along the 
American and Sacramento Rivers and Eastside tributaries in the 
Sacramento, California, area.
    Based upon October 2015 price levels, the total initial 
cost for this project is estimated at $1.6 billion.
    The South San Francisco Bay Shoreline Chief's Report was 
transmitted to Congress on 28 July of 2016. The report details 
plans to reduce flood risks for the community of Alviso, 
California, as well as ecosystem restoration measures in the 
Alviso pond complex.
    Based on October 2015 price levels, the total initial cost 
for this project is estimated at $173.9 million.
    The Craig Harbor Chief's Report was transmitted to Congress 
on August 22 of 2016. The report outlines navigation 
improvements to Craig Harbor, Alaska, including the 
construction of an L-shaped breakwater and provision of 
additional moorage for approximately 145 vessels.
    Based on October 2015 price levels, the total initial costs 
for this project is estimated at $32.3 million.
    The Corps has also completed a Chief's Report on the 
disposition of Green River Locks and Dams Nos. 3, 4 and 5, and 
Barren River Lock and Dam No. 1. This report was submitted to 
Congress on June 30 of 2016.
    The locks and dams identified in this report have not 
hosted commercial navigation for several decades and no longer 
support the congressionally authorized project purpose. 
Following deauthorization of commercial navigation at these 
facilities, the Corps will dispose of these properties and 
facilities through existing Army regulations and General 
Services Administration procedures unless Congress provides 
specific disposal authority.
    Yesterday the Assistant Secretary of the Army for Civil 
Works signed the Record of Decision for the West Shore Lake 
Pontchartrain project. The Chief's Report for this project has 
already been submitted to the Congress, and we just received 
confirmation this morning that the administration transmitted 
the report to Congress today.
    An additional Chief's Report recommending restoration of 
the Puget Sound Nearshore Ecosystem has completed the necessary 
policy and statutory reviews and has been provided to the Chief 
of Engineers for consideration and signature. This report is 
expected to be signed by the Chief within the next several 
days.
    Section 902 of the Water Resources Development Act of 1986 
sets a maximum percentage cost increase for Civil Works 
projects. A further authorization is required to use Federal 
funds beyond this maximum authorized project cost. In these 
cases, the Corps completes a Post-Authorization Change Report, 
which is then provided to Congress if there is a recommendation 
for a further authorization.
    There are two of these projects or reports that have been 
completed since our last testimony in May. The Swope Park 
industrial area project, which is located along the Blue River, 
reduces flood risk in the Kansas City, Missouri, metropolitan 
area, and the Picayune Strand Restoration Component of the 
Comprehensive Everglades Restoration Plan, which provides for 
ecosystem restoration benefits.
    I would also like to take this opportunity to provide a 
brief update on the 2017 report to Congress on future water 
resources development as required by section 7001 of the Water 
Resources Reform and Development Act of 2014. The open season 
for submission of proposals by non-Federal interests closes on 
Monday, September 19. The Corps has proactively engaged with 
potential non-Federal sponsors to generate interest in 
submission of proposed water resources projects through various 
solicitations, informational sessions, and outreach 
opportunities.
    Notifications have been placed in the Federal Register, 
Corps Web sites, and on several social media platforms, and 
agency leadership has endeavored to promote this initiative at 
conferences and applicable information meetings.
    The Corps has also advertised and hosted a public Web-based 
information session to explain the 7001 criteria and how to 
submit proposals. We look forward to reviewing the proposals 
that we have received.
    Mr. Chairman, this concludes my statement. I appreciate the 
opportunity to testify today, and I look forward to answering 
any questions that you may have.
    Mr. Gibbs. Thank you.
    Just for clarity, in your testimony you talk about these 
that OMB sent in in June and stuff. Those were already in the 
bill. We had Chief's Reports. It is just how OMB functions. So 
I am really focusing on the two new Chief's Reports and the two 
new Change Reports that we just received and maybe the ones 
that we are going to receive before the deadline Monday, I 
believe, September 19.
    My first question is a question I always need to ask to 
hold everybody accountable. Between these two Chief's Reports 
and the two Post-Authorization Change Reports that came in 
since our previous hearing, did the Corps encounter any 
significant opposition to these reports?
    And if they did, can you kind of generalize what that 
opposition was and the concerns?
    General Jackson. No, Mr. Chairman, we did not encounter any 
significant opposition. We have been able to work through all 
of the issues with our resource agency partners and 
stakeholders to deliver these reports.
    Mr. Gibbs. That is great. That is good to hear.
    And on this hearing the two Post-Authorization Change 
Reports that we are looking at, can you give us several reasons 
why these projects cannot be completed within the budget that 
Congress has already provided?
    General Jackson. Generally speaking, as we work through the 
completion of these reports, over time we found in some cases 
differing site conditions that we had to address. In other 
cases we had cost increases that were not foreseen at the time 
when these reports were initiated. As always it is to make sure 
that the report that we deliver and have to update from time to 
time is technically and policy compliant. That is what we have 
attempted to do with these particular reports.
    Mr. Gibbs. OK. Now, the deadline to submit to get into this 
bill hopefully is Monday, September 19, and I know that the 
annual report process is in February. Your testimony was that 
the Corps posted on their Web site a Webinar on August 17 to 
inform the non-Federal sponsors of submission requirements.
    How else has the Corps provided assistance to non-Federal 
project sponsors prior to submission, knowing about the 
deadline coming up?
    General Jackson. Sir, we have done a number of things. We 
have, again, used social media to the extent that was can to 
get the word out about what this process is and how sponsors or 
potential project sponsors can take advantage of this.
    We have certainly blanketed and done extensive training 
within our own organization to make sure that at the district 
level where we have the greatest outreach, they are able to 
have that face-to-face contact through townhall meetings and 
other relational opportunities to get the word out on what we 
are trying to accomplish.
    And I will go so far as to say I even did a personal 
YouTube video to encourage folks to take advantage of this 
opportunity, which I hope you will never look at, but we went 
to that extent to try to get the word out so we could get as 
many opportunities as we could as a result of this process.
    Mr. Gibbs. That is great to hear because for our process 
that we set up in WRRDA 2014, for it to work, to function 
right, the non-Federal project sponsors need to know how the 
mechanism works. So I am glad to hear that we moved forward on 
that.
    On the Houston Ship Channel that addressed navigation 
safety and what we call the Bayport Flare, which I know you are 
aware of, why does the Corps no longer use the bend easing 
authority contained in U.S. Code 562 for carrying out that type 
of activity?
    General Jackson. Sir, I am going to have to ask if I can 
get back to you on that.
    Mr. Gibbs. OK.
    General Jackson. That is a technical question I am not 
prepared to answer.
    Mr. Gibbs. OK.
    General Jackson. I will say this though, that we are 
working very hard with the administration to get this report 
cleared. I was personally at the Port of Houston 2 weeks ago to 
make sure that I understood the significance. The Port of 
Houston Authority was very kind in laying all of this out, not 
only the Post-Authorization Change Report that we are trying to 
get to address this one issue, but also the channel extension 
project that we are in the midst of working through right now 
where we are trying to schedule Civil Works Review Board by the 
end of the calendar year.
    Mr. Gibbs. Can you give us any more details on the Puget 
Sound Chief's Report that we expect is probably coming in the 
next couple of days for what this project would do?
    General Jackson. Yes, sir, I am glad to do that.
    This particular project is an aquatic ecosystem restoration 
project. It is a part of the EPA's Ecosystems of National 
Significance. So it is a very significant effort on a national 
basis.
    We have had significant participation at the Federal and 
State level. We started out with about 35 different potential 
project features, and we have worked that down to the four that 
we have in the report, which will be the Duckabush River 
Estuary, the Nooksack River Delta, and two parts of the North 
Fork Skagit River.
    The cost information that we are looking at right now is 
about a $450 million project that is 65 percent Federal, 35 
percent non-Federal. We have had wholesale support by about 15 
different Federal agencies in developing this, so I am very 
excited about the way it was formulated and looking forward to 
getting this signed by the Chief.
    Mr. Gibbs. And back to my first question. Was there any 
significant opposition or concerns about this project?
    General Jackson. No, sir, none that I am aware of.
    Mr. Gibbs. All right. Thank you very much.
    Mrs. Napolitano.
    Mrs. Napolitano. Well, thank you very much, Mr. Chairman.
    I was starting to say that we have been working with you 
for a short-term deviation for the current water control plan 
for a specific area, Whittier Narrows, in my area, augmenting 
the critical water shortage. I thank the Corps for their 
efforts in that regard, but we are still in a drought. 
According to the latest map, we are heavily in drought and must 
continue to address it.
    Thank you to Chairman Shuster there is language in the 
committee approved Water Resources Development Act to benefit 
L.A. County drainage area, and I encourage the Corps to make 
more frequent and timely reviews and revisions of existing 
water control manuals in drought prone areas. We certainly are 
and most of California is in that same position.
    I look forward to the enactment of the language before the 
end of this session. However, I expect that Los Angeles will 
need to make another attempt for a short deviation during the 
2016-2017 winter storm to capture as much water as we can.
    And I would like to know if you can commit towards working 
to approving a second season deviation for that area, 
especially Whittier Narrows, to help prepare for what looks 
like another seasonal crippling drought for the Southwest. It 
would help tremendously, and of course, we are still looking at 
dredging to be able to prepare the dams for capturing more 
water.
    General Jackson. We will certainly commit to doing that. We 
are certainly committed to addressing the drought through 
whatever means that we have, and working the short-term 
deviations and the long-term reservoir fixes that we are in the 
process of working through across southern California.
    Mrs. Napolitano. Well, I thank you very much, sir.
    And, Mr. Chairman, I am certain that Mr. Larsen's request 
for the Puget Sound is going to be well received since it has 
already received quite a bit of support from his area.
    And I yield back.
    Mr. Gibbs. Just for a point of clarification, I think I 
misspoke when I talked about the September 19 Monday deadline. 
That is for going into the February 2017 annual report, not 
WRDA. I just wanted to clarify that when I spoke.
    Mr. Webster.
    Mr. Webster. Thank you, Mr. Chairman, for having this 
hearing.
    And I want to take my time just to thank General Jackson 
for presenting the Post-Authorization Change Report for the 
Picayune Strand restoration project authorized in 2007 and 
redesigned post Hurricane Katrina. The project will restore 
55,000 acres of former residential unit in southwest Florida.
    The completed project will deliver restoration benefits to 
170,000 acres in Western Everglades, including downstream the 
Ten Thousand Islands Estuary and neighboring preserves, which 
will reap the benefits of the restoration with natural sheet 
flow.
    In addition, the project will enhance the protection 
recovery of the iconic, though sometimes imperiled, Florida 
species, including the Florida panther, the wood stork and the 
Florida manatee. Inclusion in this change report and WRDA 2016 
will be a significant milestone for the Western Everglades.
    I am grateful for Army Corps and for the South Florida 
Water Management District for their substantial investment in 
resources to date and ongoing commitment to completing this 
component of the comprehensive Everglades restoration plan.
    Thank you very much. I yield back.
    Mr. Gibbs. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman, and I thank you and 
the subcommittee for allowing me to sit in since I am on the 
full committee but not on the subcommittee. I want to say 
thanks.
    I want to thank General Jackson and the Army Corps team for 
your work as well, the local folks on the Puget Sound Nearshore 
Ecosystem Restoration Project, and our Washington Department of 
Fish and Wildlife, as well those who worked with you on this, 
for their work on the study.
    This is going to be one of the largest habitat restoration 
efforts in the U.S. It is integral to our own State's Puget 
Sound Action Agenda, which includes recovery and protection of 
several fish and mammal species and the fulfillment of tribal 
treaty rights.
    As Congress continues to work towards WRDA, I am encouraged 
by the progress being made on this particular report and 
pleased to see the report recommends construction authorization 
for the three tier 1 projects. You mentioned four, but you 
split the North Fork Skagit into two: so the Duckabush River 
Estuary, the Nooksack River Delta, and North Fork Skagit River 
Delta.
    Together these projects improve title exchanges, restore 
freshwater tidelands, improve sound restoration activities, 
among other things.
    I just would ask that given the importance as well of tier 
2 projects at the overall restoration, I strongly support the 
inclusion of the tier 2 projects as well in the final Chief's 
Report, along with these tier 1 projects.
    But I do want to, if I could, ask unanimous consent to 
include my full statement for the record, which also includes, 
Mr. Chairman, a letter I signed along with the Members of the 
Washington State Delegation who have districts abutting the 
Puget Sound, representing our complete support for this Chief's 
Report.
    Mr. Gibbs. So ordered.
    Mr. Larsen. And in closing, I would like to reiterate the 
importance of this restoration project to the entire Puget 
Sound region and look forward to the Army Corps.
    So with that, before I yield back, I have a couple more 
minutes and I will not take long. I have just one question for 
General Jackson.
    Could you clarify the timeline for the Chief's signature on 
this?
    General Jackson. Yes, Congressman. We have provided the 
Chief the report for him to review. He is out of the country. 
He is on his way back. He will be back late tonight. We are 
going to sit down and review it with him tomorrow and make sure 
he does not have any questions. He could sign it as early as 
sometime tomorrow.
    Depending on how he wants to synthesize the information, it 
may take a few days, but we are going to press him to get it 
done as soon as possible. He is committed to doing that.
    Mr. Larsen. Where is he? And does he have Skype?
    General Jackson. I think he is over the Atlantic right now, 
sir. So unless he is logged into the Gogo in flight, I am not 
sure if I can get him.
    Mr. Larsen. All right.
    General Jackson. But we will hit him as soon as he lands.
    Mr. Larsen. Well, you understand my urgency. I appreciate 
it. Thank you so much.
    And I yield back.
    Mr. Gibbs. Dr. Babin.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman, and thank you 
for being here, General Jackson.
    I offer my thanks to the Corps for completing the section 
902 report for the Houston Ship Channel project, which I 
represent there at Houston Ship Channel. I understand that the 
purpose is essentially to update the calculated cost of the 
project, which was completed in 2005, and that this report 
reflects a project cost at the same level as the Corps reported 
in its original Chief's Report from 1996, which was $508 
million; is this correct?
    General Jackson. Yes, sir. The cost that I am showing is a 
total cost of $508 million.
    Dr. Babin. OK. Thank you.
    Can you provide assurances that the Corps will do 
everything possible to assure the report is released by this 
administration for full consideration by the Congress?
    General Jackson. Congressman, I commit to that. I do.
    Dr. Babin. All right. Thank you.
    Then I know you just mentioned in the hearing today that 
you had recently visited the Port of Houston to see firsthand 
all of the exciting navigation work that is going on there and 
being accomplished by the Corps and the Port Authority. I 
understand that there is some confusion regarding Corps 
policies and appropriate sites for oyster mitigation, which is 
a very important issue for Galveston Bay and the people of 
Texas.
    Can you assure me that the Corps will fully communicate 
with the sponsor about the basis for its draft decision to 
abandon the State and Federal preferred oyster reef location 
and resolve this issue so that the pending environmental 
restoration contracts will be as successful as the original 
mitigation projects?
    General Jackson. Sir, I commit to that. That was an issue 
that was raised when I was at the port. We committed to work 
with the sponsor to try to work through the confusion and the 
concern so that we can get a project that meets all of the NEPA 
compliance requirements in the best interest of all parties. So 
we will continue to work that.
    Dr. Babin. Well, that is a very important industry for us 
there in the seafood and oysters. So we certainly hope it is as 
successful as the last one.
    And finally, as you may know, the Limited Reevaluation 
Report, LRR, for the Sabine-Neches Waterway is due at the end 
of this month, and I am hopeful and confident that this report 
will reflect the military and economic importance of this 
waterway.
    I grew up on this waterway as a matter of fact, which has a 
direct link to two strategic seaports, Beaumont and Port 
Arthur, Texas. Can you speak briefly to the importance of 
strategic seaports not only in my area, but across the country 
and how you weigh their importance when performing evaluations, 
such as an LRR?
    General Jackson. Well, certainly, sir. When we take a look 
at all of the economic and environmental work that we do to 
evaluate the importance of every project, we factor in national 
security, force projection, and all the things that the ports 
do to provide for the national defense.
    That is all part of the calculus that goes into assessing 
what the benefit-cost ratios are for projects of this type. 
Then, as you take a look at those benefit-cost ratios, that 
pretty much lays out the strategic importance of any particular 
project across the Nation.
    That is how we evaluate it in our reports, and then the 
administration prioritizes them for their funding purposes once 
we get these projects authorized. So we are working hard to do 
that.
    Dr. Babin. Excellent. Thank you very much, General.
    And I yield back the balance of my time, Mr. Chairman.
    Mr. Gibbs. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    And, General, thank you so much for your work and the 
Corps' work both in terms of the ongoing projects as well as 
the emergency situations that all of us face and you handle so 
very well.
    A couple of things. Mr. Chairman, there is a longstanding 
project that has been underway. It is authorized. It is the 
Hamilton City project in California. It is really the first of 
its kind in which the environmental organizations and the 
Nature Conservancy are working with the Corps and the local 
community to establish both habitat restoration as well as 
flood control.
    Construction is ongoing. It is an authorized project. 
Construction is going on as we speak. However, a couple of 
bumps, well, let's say pipelines and property have perhaps put 
this project in jeopardy, and what I would like to do is set up 
a situation here where if and when the Corps presents its Post-
Authorization Cost Report, it can be included in the WRDA bill, 
which may pass the House next week and get out of Congress in 
the lame duck session.
    So I am trying to set things up here so that we can do not 
an air drop, but a modification. So, General, is it the case 
that the Sacramento District is actually in the process now of 
looking at the 209 limits as it pertains to the cost of land 
that was actually donated, but has significantly increased 
because of the inflation in the area and also the discovery of 
the gas pipeline and how to deal with it?
    General Jackson. Yes, sir, I think you are absolutely 
right. When we did our last certified cost estimate on this 
particular project in 2014, it revealed some cost growth along 
the lines of what you described. Unforeseen site conditions 
which had an impact on the current contract that required 
modification, and then also the increase in the real estate 
cost.
    So what we are doing now is doing the 902 revision. The 
calculations and the certified cost is due in December of 2016. 
What the staff is telling me is that once we get that, if the 
costs that have been estimated are going to exceed the 902 
limit, then we are going to work with the sponsor to try to 
descope so they can stay below the 902 and continue to move 
forward.
    If it does not, then they will just continue to move 
forward. It is more of a precautionary measure to make sure we 
do not run out of authorization limit on this project so we can 
continue to move forward, given some of the bumps that we have 
encountered.
    Mr. Garamendi. Just a couple of things here that I think we 
need to understand. The land cost is actually land that was 
purchased some 10 years ago by the Nature Conservancy. It is 
donated.
    The cost issue is a result of the inflation that has 
occurred in that intervening time. There is no additional cost 
to the Federal Government here. It is already land that has 
been donated for the purposes of habitat restoration.
    But the rules are the rules, and I guess the new cost, 
inflated cost, is included, and that may drive up over the 
authorized cost. The pipeline, as I said earlier, was recently 
discovered. It may be that it will have to be relocated, or it 
may be able to stay in place and protected in place. We will 
see what happens.
    You did say something a moment ago that is troublesome, and 
you said December 1. That does not or may not coincide with the 
work that needs to be done in a conference report to WRDA, and 
so I am asking if you might be able to get it done quicker, 
like maybe early October. Is that possible?
    General Jackson. Congressman, I will have to get back to 
you on that because I cannot commit to that without knowing 
what is left to be done on that particular report. But if you 
would allow me to do two things, one is to come back to you 
with a detailed accounting of how we got to where we are and to 
clarify what we are actually verifying, and then, two, give you 
some options on what we think the future holds.
    And we will try to get that done really quickly so we can 
make some good, informed decisions on how to go forward.
    Mr. Garamendi. I think I heard you say you are going to ask 
the Sacramento District Office how quickly they can get it 
done. Is that what I heard you say?
    General Jackson. Congressman, what I said was I need to 
understand what they have left to do on it.
    Mr. Garamendi. Well, then let me ask you to ask them how 
quickly they can get it done. If we can meet our own deadline 
here, I think we can drop this in, and I will let it go at 
that.
    But I am looking for a placeholder here, Mr. Chairman.
    Mr. Gibbs. Mr. Bost.
    Mr. Bost. Thank you, Mr. Chairman.
    General, the last time the Corps testified before this 
committee, I requested the Corps respond to a request for them 
to examine the deep flaws in the agency's environmental impact 
statement whenever they put it together for the next NGA West 
Campus, and I still have not received that and any information 
on that inquiry.
    Let me kind of explain what all was involved with that and 
why that is important.
    The Corps EIS was used by the agency to determine where to 
locate the NGA West. The EIS misidentified in that report St. 
Clair County, Illinois, by going with St. Clair County, 
Missouri, along with St. Clair County, Michigan.
    In that study they wanted to bring up the environmental 
impact for the Osage River, which is in Missouri, not in 
Illinois. That was then used in making the determination. Now, 
let me tell you that the Secretary said that it was not the 
only thing used in making the determination, but in the St. 
Clair County, Illinois, the county owned and controlled the 
land that they were offering and were going to give it to the 
Federal Government for free.
    The St. Louis site that they did look over is an already 
developed urban area, and it required imminent domain of 42 
properties, land acquisition movements, and also the removing 
of historical structures. It also has some environmental 
impacts that we know exist from the Cold War days, and that is 
not even digging into the ground yet to figure that out.
    This site, then the Corps EIS claimed it would be cheaper 
on the St. Louis site than the St. Clair County site. This 
makes no sense to me whatsoever, and that is why I asked for 
the report, and it has been quite some time to try to figure 
out exactly what was done here and why.
    Everything I have done with the Corps since being elected 
has been fairly good. I mean, it really has, and believe me, I 
deal with you a lot because, lucky me, I have three navigable 
waterways in the Illinois 12 and so from that side and other 
projects.
    But this one has really got me concerned because for a 
professional agency to come forward with a report like that, 
and of all things, the agency that they were getting the study 
for is geo mapping, but they cannot figure out what county or 
where their county is located that they need to be looking at.
    So that is why I really need if you could to get that 
report to me and find out why.
    General Jackson. Well, Congressman, thank you very much for 
that, and I remember very well the conversation we had when I 
testified last to the committee on the 17th. We received a 
letter from your staff shortly thereafter, maybe within a 
couple of days, asking for an engineering inspector general 
investigation into that. I am told as of yesterday it is done 
and they are working to schedule an out-brief to you that will 
lay out all of the details of the investigation and answer the 
questions that you posed.
    So I want to let you know that that is coming to you 
shortly.
    Mr. Bost. Thank you.
    General Jackson. If it can be scheduled, that will probably 
answer all of the questions.
    As an agency leader, we are always looking to do the right 
thing. We are always looking to be technically proficient in 
everything that we do. I do acknowledge that as we have done 
our own investigative work, there were errors made in the draft 
EIS that we put together, and we acknowledge also that the EIS 
was a part of the decision calculus that NGA has used to make 
final decisions.
    But I will leave the details that you have asked for to the 
EIG update, and I will be glad to follow up with you on any 
questions that you might have that the update does not answer, 
sir.
    Mr. Bost. OK. I look forward to that meeting. Thank you 
very much.
    Mr. Gibbs. They called votes. We have 11 minutes to go yet. 
We are going to go to Ms. Frankel, and when she finishes her 
questions the hearing is adjourned.
    Go ahead.
    Ms. Frankel. OK. Thank you, Mr. Chair.
    I thank you to the Army Corps, General Jackson, for your 
work.
    Just three quick things. I want to echo Mr. Webster and say 
thank you, thank you so much on the course modification on the 
Picayune Strand, the Central Everglades restoration projects. 
All of those restoration projects are very, very important to 
Florida. So thank you for that.
    I wanted to remind everybody that we have this archaic law 
that does not allow us to buy sand from the Bahamas, and we are 
running out of sand in Florida, and I do not understand why we 
have that in the law. So I persist in saying that we have 
really got to do something about that.
    And the third thing, which is very serious, and I brought 
this up with you last time, General Jackson, and, Mr. Chair, I 
really hope that maybe this committee could work with some of 
the other pertinent committees on this issue, which is the cost 
analysis that is used in evaluating these projects.
    And I want to use an example, Port Everglades, which after 
18 years finally we got the Chief's Report. Thank you for that. 
It was a lot of hard work, and I sat in the final review and I 
saw how many different people and committees, whatever, had to 
go through, and in that review I sat in there for hours and 
hours, and now I understand why almost it takes so long. 
Eighteen years was a little long.
    Now we are learning that the Office of Management and 
Budget uses a completely different formula in terms of 
evaluating the benefit-cost analysis, and that could actually 
prevent the project from going forward. I would guess, although 
I have not looked at every single project, that this might be 
something that is a problem with other projects, too.
    So my concern is not only that we might get our project 
stalled again, but my concern is this. Army Corps working on 
getting a Chief's Report for many, many years, with a lot of 
people, and it is costing millions of dollars, and you are 
using a different cost analysis than the Office of Management 
and Budget, and that just does not make any sense to me.
    Because in a sense, they can say, ``All right. All of your 
18 years of work,'' and now it is going to be three under the 
new law, ``is for naught.''
    Have you given any thought to how we can try to resolve 
that situation?
    General Jackson. Ma'am, I will tell you that we struggle 
with this. What is authorized in law for addressing a problem 
is a 1.0 BCR based on the current discount rate, and that 
changes very slightly over time. The budget-ability rate is 
different, as you described. It is based upon a 7-percent 
discount rate, which has a serious impact on BCR.
    We have had discussions with OMB leadership about what 
other ways could we calculate investment decisions outside of 
the BCR, and so we are working with the administration to try 
to figure out what that might be.
    And certainly this current administration and senior 
leadership is open to that if we can come up with something we 
can all live with.
    If there are any good ideas that Congress has that can help 
us, we are all ears. We would like to be able to make it make 
more sense, but we also realize that the administration has 
tough budget decisions to make, as you do, and has to set some 
type of criteria to separate projects into what can and cannot 
be budgeted. I cannot speak for them, but we will certainly say 
we are working on this to the extent that we can at the levels 
that we are.
    Ms. Frankel. All right. If I can make an analogy, it is 
almost like sending someone out to run the marathon, and then 
all of a sudden somebody hides the finish line from them. And 
they have done all of this running and now somebody else moves 
the finish line.
    Mr. Chair, I really again would just like to request that 
this committee take a look at this issue and maybe reach out to 
I do not know whether it would be the Budget Committee or what 
committee in the Congress that would also have jurisdiction. Do 
we know what it would be? Probably the Budget Committee, 
because this just does not make any sense to put the Army Corps 
and the communities through all of this work and effort and 
then all of a sudden have a whole different analysis of the 
cost.
    And with that, I yield back. Thank you.
    Mr. Gibbs. I think the administration has some input in 
that, too.
    We have 6 minutes to go over and vote, and thank you, 
General Jackson for being here today, and this adjourns our 
hearing.
    General Jackson. Thank you, Mr. Chairman.
    [Whereupon, at 10:17 a.m., the subcommittee was adjourned.]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
 
                      [all]
                      
                      
                      
                      
</pre></body></html>
